<html>
<title> - Transatlantic Relations in Flux</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



115th Congress }                            Printed for the use of the             
2nd Session    }      Commission on Security and Cooperation in Europe                       

======================================================================

	        Transatlantic Relations in Flux


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




                           July 18, 2018

                           Briefing of the
          Commission on Security and Cooperation in Europe
------------------------------------------------------------------------
                         Washington: 2019






      Commission on Security and Cooperation in Europe
                  234 Ford House Office Building                                               
                   Washington, DC 20515
                      202-225-1901
                   <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="93f0e0f0f6d3fef2faffbdfbfce6e0f6bdf4fce5">[email&#160;protected]</a>
                   http://www.csce.gov
                     @HelsinkiComm

                                      
                                      
                                      
            Legislative Branch Commissioners



              HOUSE				SENATE
CHRISTOPHER H. SMITH, New Jersey 	ROGER WICKER, Mississippi,
          Co-Chairman			  Chairman
ALCEE L. HASTINGS, Florida		BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama		JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas		CORY GARDNER, Colorado
STEVE COHEN, Tennessee			MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina		JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois		THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas		TOM UDALL, New Mexico
GWEN MOORE, Wisconsin			SHELDON WHITEHOUSE, Rhode Island
                        
          
                 

               Executive Branch Commissioners
               
               
                    DEPARTMENT OF STATE
                   DEPARTMENT OF DEFENSE
                  DEPARTMENT OF COMMERCE
                            [II]

ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE               
               
The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe [OSCE]. The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.


ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.

			       [III]



                    Transatlantic Relations in Flux

                             July 18, 2018                             
                                         
  
                                                                                               Page
                               PARTICIPANTS
                               
Dr. Mischa E. Thompson, Senior Policy Advisor, Commission on Security and Cooperation
in Europe  ..................................................................................... 1

MEP Claude Moraes (UK), Chair, European Parliament Committee on Civil Liberties, Justice,
and Home Affairs, Progressive Alliance of Socialists and Democrats ............................. 2

MEP Michal Boni (Poland), European People�s Party .............................................. 3

MEP Nathalie Griesbeck (France), Chair, European Parliament Special Committee on Terrorism,
Alliance of Liberals and Democrats ............................................................. 4                          
                             
                                 (iv)
   
 
                Transatlantic Relations in Flux
                
                              ----------                              

                             July 18, 2018




    The briefing was held at 10:00 a.m. in Room 216, Hart Senate Office 
Building, Washington, DC, Dr. Mischa E. Thompson, Senior Policy 
Advisor, Commission on Security and Cooperation in Europe, presiding.
    Panelists present: Dr. Mischa E. Thompson, Senior Policy Advisor, 
Commission on Security and Cooperation in Europe; MEP Claude Moraes 
(UK), Chair, European Parliament Committee on Civil Liberties, Justice, 
and Home Affairs, Progressive Alliance of Socialists and Democrats; MEP 
Michal Boni (Poland), European People's Party; and MEP Nathalie 
Griesbeck (France), Chair, European Parliament Special Committee on 
Terrorism, Alliance of Liberals and Democrats.

    Dr. Thompson. Good morning. My name is Dr. Mischa Thompson, and 
welcome to ``Transatlantic Relations in Flux,'' a briefing on the U.S.-
EU relationship hosted by the U.S. Commission on Security and 
Cooperation in Europe, also known as the Helsinki Commission. For those 
of who you may not know, the Helsinki Commission is an independent U.S. 
Government agency focused on human rights, economics, and security in 
the 57 North American and European countries that make up the 
Organization for Security and Cooperation in Europe, or the OSCE. The 
commission is bicameral and bipartisan, and comprised of members of 
Congress and the executive branch, including our U.S. State Department. 
More on our commission can be found at www.csce.gov. You can also find 
us on Facebook and on Twitter at @HelsinkiComm.
    We are so fortunate today to be joined by three members of the 
delegation from the European Parliament's Civil Liberties, Justice, and 
Home Affairs Committee, visiting Washington, DC to attend the 
Transatlantic Policy Network's acclaimed Transatlantic Week. We thank 
Jorn Fleck and his team for helping to facilitate today's briefing, and 
are only sorry that they cannot be with us today as they are also 
currently hosting an event. We also thank Antoine Rippel and Holger 
Benzig for helping us to arrange today's event so quickly.
    I think today's event couldn't be more timely, in that it's simply 
taking place on the heels of our president's European travel and ahead 
of meetings planned for July 25th with the head of the European 
Commission, Jean-Claude Juncker, who will travel to Washington, DC to 
meet with our president. You can find the bios of today's panelists, 
who are all members of the European Parliament, or MEPs, in the blue 
folders and online. Given that we have about an hour, I will begin by 
asking a few questions, after which we will have time for questions and 
discussion from the audience, including those with us online. Given 
that we are also taping this briefing, I ask everyone to please speak 
directly into their microphones. And for those of you here on the 
panel, you will need to press the red button to talk.
    And with that, I will begin by introducing you. To my right we have 
member of the European Parliament Claude Moraes of the United Kingdom, 
who's also chair of the European Parliament Committee on Civil 
Liberties, Justice, and Home Affairs, and a member of the Progressive 
Alliance of Socialists and Democrats. To my left we have MEP Michal 
Boni of Poland, a member of the Civil Liberties and Constitutional 
Affairs Committees, as well as vice chair of the EU-Moldova 
Parliamentary Association Committee, and member of the European 
People's Party. Further to my left we have MEP Nathalie Griesbeck of 
France, chair of the European Parliament's Special Committee on 
Terrorism and member of the Alliance of Liberals and Democrats for 
Europe.
    And so with that, I will actually turn to MEP Moraes and just ask 
if you can start by telling us why you're here in Washington right now, 
what is the purpose of your delegation's visit, who are you meeting 
with, and what is it you hope to accomplish.
    MEP Moraes. Okay, thank you very much, Mischa, and thank you to the 
Helsinki Commission for this kind invitation. I should remind people 
also that you in the Helsinki Commission have regularly come to 
Brussels, to the European Parliament. So this is a vehicle for really 
good cooperation between the European Parliament and the institutions 
here between you and Congress. So it's great to be here.
    Maybe first to say that a lot of interesting things happened in 
Helsinki. And maybe one of the best things was the creation of the 
Helsinki Commission. And one of the reasons we're here is to do what 
was in the founding principles and the signature in 1975, which is to 
strengthen relationships between the European Union and the United 
States. Within that very abstract statement lies a program for us which 
is very specific and very focused. And it represents the difference 
between perhaps what would have been a 1975 program, when many of you 
would not have been born--some would--and that would be the advances in 
what cooperation means.
    So, our specific thematic issues include data transfers both in the 
commercial and security areas. Privacy Shield, for example, the success 
of Safe Harbor, the whole issue of the CLOUD Act and how it coalesces 
with the Umbrella Agreement, these very major international agreements 
in data transfers--the wider area, as my colleague Nathalie Griesbeck 
will talk about, the whole area of security cooperation and data 
transfers to make our two continents safer from terrorist attacks. So 
the issue of counterterrorism cooperation, and cybersecurity, which has 
taken on an extraordinarily new vista, which is now not just about 
protecting our critical infrastructure but also protecting our 
democracy.
    We've seen the Cambridge Analytica crisis. And it's about ensuring 
that we protect our democracies, our elections from interference, as 
we've seen from Russia, and to ensure that in order to do that we are 
cooperating, and we understand what the issues are. So these are some 
of the issues that our committee in particular will be and have been 
discussing with our counterparts and their detailed passenger name 
records, actual international agreements. So we're highly focused and 
we're regular in visiting. And we hope to make progress in all of these 
areas.
    Dr. Thompson. Now, we titled this briefing ``Transatlantic 
Relations in Flux.'' And there's been a lot of recent focus, rightly 
so, on the flux, or all of the changes that have been taking place in 
the U.S. approach to relations with Europe. However, I'd like to take a 
step back today and think about where it is we would ideally like to 
see the transatlantic relationship. So if we were to look into the 
future in a decade or two, where is it we would actually like for 
transatlantic relations to be? And are we currently on the path to 
getting there? And I'll actually turn to MEP Boni to ask your thoughts 
on where it is you would ideally see the transatlantic relationship in 
10 years.
    MEP Boni. First of all, thank you very much for the invitation. I 
was a student in 1975 when the Helsinki conference occurred. And after 
that, it was kind of an opening in some countries. In 1976, in my 
country, the committee for defending workers was established. And as a 
student, I was involved in dissemination and propagation of the first 
underground newspapers--it was the beginning of our fight for freedom. 
So, from that time to today, when the Helsinki Commission in Warsaw, in 
Poland, is very active defending democracy and freedom, I see the 
Helsinki idea, the Helsinki Commission as one of the important 
movements in defending democracy all over the world.
    And of course, we need transatlantic relations if we want to have 
and to develop the opportunity to defend the liberal democracy which, I 
hope, is the core of Western values. And I think also the transatlantic 
values. So this is one key point. Second, I think that this is a chance 
to establish the future of transatlantic competitive advantages, 
especially in the digital field. And we need to work on it. And also, 
this is a possibility in transatlantic relations to create positive 
reference points for global development in many areas. Global 
development means economic development, but it also means ensuring that 
democracy is functioning. It's one of the key issues.
    And of course, when I'm looking at that time frame I need to define 
some obstacles. It is difficult to develop future-oriented cooperation 
when we are starting trade wars as it was in the 19th century--not 
20th, 19th century. It is difficult to develop policy, to develop 
policy protection and create a good global reference point for privacy 
protection when we are starting to consider how many threats and 
concerns the CLOUD Act, passed in the U.S., is bringing. It is 
difficult to take common responsibility for global development when the 
U.S. authorities decide to withdraw the signature from the Paris 
Agreement, so it means that there is no possibility to cooperate for 
saving the globe against the environmental collapse.
    And it is difficult to build a common defense strategy in a time in 
which the EU is taking a new responsibility for defense, when EU 
partners are humiliated by the president of the United States, as it 
was last week in the NATO summit in Brussels. And it is difficult to 
develop transatlantic relations without political stability, rather 
with strong uncertainty. We need to come back to the path of stability 
of those relations. But there are problems not only on the U.S. side. 
There are also many problems on our European side.
    I'm from Poland, and I'm living in a country in which the ruling 
party is undermining the democracy, the freedoms, and also the rule of 
law and the independence of the judicial system. Now we are fighting 
for the Supreme Court and keeping the Supreme Court independent. It's 
not so easy to say that we will win this battle. The same situation is 
in Hungary. One month ago, Hungary approved legislation which is full 
of punishment for people who are ready to support and to help refugees. 
The same situation is growing in Slovakia, where an independent 
journalist was killed some months ago. The same situation is growing in 
the Czech Republic and in Romania, and some countries. Also in Italy.
    So, there is a big problem on both sides of the transatlantic 
geography model. And I think that if we want, in the perspective of 10 
years, to develop and to make many solutions much more advanced in the 
digital realm, in the economic realm--we need now to start and to fight 
for democracy, freedoms, and the rule of law on both sides of the 
Atlantic.
    Dr. Thompson. Before we go any deeper into your comments, I would 
like to turn to MEP Griesbeck, and ask where do you see things in 10 
years? Do you agree with MEP Boni's assessment in terms of what the 
ideal relationship should be and what some of the obstacles are in 
getting there?
    MEP Griesbeck. Yes. First of all, thank you very much, Mischa, for 
organizing this meeting. Sorry for my bad English, because I am French 
and it's--I did not--my studies in United States. But I like very much. 
I was an international visitor at the 20th century. It's a long time 
before. [Laughs.] But it was a very marvelous time for me. And I like 
very much to come. Today I come to United States in this prestigious 
Congress and with the delegation. And it's for me a great pleasure.
    I am with Mr. Michael Speiser, he is the chief administrator for a 
different committee in the European Parliament. It's also an honor for 
me to speak today to the Helsinki Commission. That reminds us of the 
name of the city of the summit Helsinki 2 days ago between your 
president and Mr. Putin. And it's a strange situation, because for me 
the Helsinki Commission is an institution that has been created in 
order to announce consideration of human rights in the formulation of 
U.S. foreign policymaking, and to support democratic change in the 
countries of the former Soviet bloc.
    One, the principles standing at the creation of the commission have 
lost nothing of their importance today. They are the expression of our 
shared values, as Michal Boni said just before. And it's very 
important. And principles that our countries follow, and without which 
our democracies could not exist. The respect for freedom, equality, 
civil liberties, rule of law, and democracy are values upon which our 
societies are built. And it's, for me, to answer to your question, the 
work to do for the 10 years in front of us. But it is work from the 
human dimension, the Helsinki Commission also monitors developments 
regarding the security dimensions.
    And its activities in recent years have been included in hearings 
on combating terrorism. Terrorist organizations violate the basic human 
rights of people, such as the right to life and physical and 
psychological integrity. As chair of the Special Committee Against 
Terrorism, the fight against terrorists, these common positions are 
very important. Currently we are experiencing some tensions in the 
relationship between our countries, as my colleagues said. For example, 
also, it was not mentioned in our trade relations, at the same time, to 
our regret, the U.S. has decided to disengage from U.N. efforts such as 
U.N. human rights, UNESCO, and Paris Agreement on climate change.
    Despite this, speaking here today as the chair of the Special 
Committee on Terrorism, I would like to stress that the U.S. is one of 
our most important partners in the fight against terrorism. I went 
yesterday to the terrorist training center. And we have a very 
interesting meeting with the intelligence services, with the FBI, and 
we have to work together in the fight against terrorism because it's a 
global threat--it's a world, global threat. And we need to be together 
to fight against these bad things. And it was very, very interesting to 
speak with your intelligence services, because they are extraordinarily 
well organized.
    I want to say this today, we are guided by the shared concern for 
the security of our citizens and face the same threats. Some of the 
recent attempted terrorist attacks in the EU have been thwarted thanks 
to information received from U.S. intelligence services. And without it 
would be most difficult to fight against them. And the cooperation in 
this field has increased very much in recent years to mutual benefit. 
The Committee of Foreign Affairs of the European Parliament recently 
adopted its report on EU-U.S. relations, according to which the 
European Union and the United States building on the strong foundation 
of shared values and principles should use all available channels of 
communication in order to strengthen the transatlantic relationship.
    The U.S. Congress and the European Parliament should, with regard 
to this, use the full potential of the cooperation to preserve the 
democratic, liberal, and multilateral order, and to promote stability 
and continuity in the 10 years on the continents and in the world, even 
if the winds are sometimes bad. I don't know if this situation is able 
to explain something in my bad English, but in French it's something 
very clear as the winds are sometimes bad. And we are in this sequence 
today since several months. Even in the European Union, not only here 
or there.
    These efforts are even more needed as we face new challenges in the 
multipolar world. I can only agree with these conclusions. I would like 
to use this opportunity to express my hopes that our cooperation in the 
areas in defense of peace, freedom, and democracy will continue for 
world stability.
    Thank you. And excuse me for my bad English, but you seem to 
understand.
    Dr. Thompson. Thank you so much. I will say, your English is so 
much better than my French. [Laughter.] So thank you. We appreciate 
that.
    There were a number of issues that were just raised in terms of 
where we would see ourselves in the next 10 years on both sides of the 
Atlantic. I think what obstacles we would have to address--everything 
from the CLOUD Act to where the U.S. stands on a number of U.N. bodies 
regarding the Human Rights Council, as well some other multilateral 
agreements including climate change, and then, of course, our recent 
comments made at the NATO summit.
    But before we actually turn things over to the audience, I will say 
one of the things that we didn't hear about just yet is actually Brexit 
and where we would--[laughs]--see ourselves in the next 10 years. And 
since we are lucky enough to have someone from the U.K. on the panel--
and I apologize, I know you must get this question all the time--but 
just given what we see in the next months where----
    MEP Moraes. So I got the boring first question and then I get the 
Brexit question. Thanks, Mischa, very much. [Laughter.] My colleagues 
get all the really cerebral, sophisticated questions. I get what are 
you doing here and tell us about Brexit. [Laughter.] Thank you very 
much. I'll see how I can make this really imaginative as well. So let's 
see how I can weave this into something interesting. Yes. Anyway, what 
do you want to know about Brexit? We're leaving. [Laughter.] So, yes, 
OK, moving on.
    Dr. Thompson. [Laughs.] I'll ask you two questions. So what does 
that mean for the U.K. in 10 years, what does it mean for the EU in 10 
years? And then I'll even say, most recently, what will it mean for the 
European Parliament next year?
    MEP Moraes. Yes, like I said, we're leaving. [Laughter.] So--well, 
you never know. [Laughs.] Oh, that's being recorded.
    Well, yes, it's a bit of a mess. And one of the reasons it's a mess 
is because, first of all, the European Union is a good thing, as people 
are learning. And the process of leaving, as always happens when one 
leaves, is you start to understand what the good things are about your 
partner and how you might miss them. Well, that's certainly what 
happened between me and my partner. And we're still together, so 
everything's fine. I'm just making that very personal.
    But the issue about Brexit in terms of the issues that Nathalie and 
Michal have been discussing are actually quite serious ones. If you 
think about, for example, the issues at stake, if you look at security, 
for example, it was always thought that we could just walk into Brexit 
and there would be an easy kind of accommodation between what is a 
major economy, the United Kingdom, a major security asset country like 
the United Kingdom, with some of the most mature intelligence and 
defense assets anywhere in the world, and the European Union. And that 
would be easy to do. Remember, the United Kingdom is part of Five Eyes 
with the United States, just to give you one aspect which is also of 
interest to my colleagues here.
    And we see that this is not the case. And it's not the case because 
the European Union is a very sophisticated and added-value concept, 
which has both benefited Europe and it's benefited the United States. 
Why? Because what has happened over that period is that the security 
aspect has become a more complicated and important issue. For example, 
data has led it. So when you deal with terrorists, very often you're 
not dealing with terrorists through hot pursuit and enforcement and 
machines. You're dealing with it through information, data. Europol, 
one of the most successful agencies anywhere in the world--it's a very 
small agency but it's a huge added value--is not an enforcement agency. 
It's an intelligence agency. But it's so successful because it takes 
its intelligence capacity very seriously and it's good at it. And it 
shares its information very well and it has the correct priorities.
    Now, the United Kingdom, through Brexit, will want to share in 
Europol afterwards. But because of the legal constraints, the U.K. will 
be a third country. That will be tough. Now, that also has an impact on 
the United States. Why? Because the U.K. is in Five Eyes. And it's 
difficult to divide what is happening in the European Union from what 
is happening in intelligence sharing generally, because these are not 
divisions that people can make very easily. So Brexit has all sorts of 
difficult and unintended consequences because the European Union's 
development has happened in such a way to impinge on the real needs and 
values of the transatlantic relationship.
    What Britain got from the European Union was a magnification of its 
role and its relationship with the United States, not a diminution. And 
I think people are realizing that now. It's a less-special relationship 
when you're on your own because you don't have the added value, you 
don't have the economies of scale. So, what we had in our intelligence 
services and our defense assets, and so on, don't have the 
magnification by not being in the European Union. So, the other thing 
is the simple question of a security treaty with the EU legal 
constraints on our access to databases. We'll need adequacy agreements 
and so on.
    So the European Union, as you may have gathered from what I'm 
saying, is a good thing. But it's a good thing for the United States. 
And the United States is a good thing for us. What will constrain 
that--and Brexit has thrown everything into sharp relief--is an 
understanding that the relationship must be nurtured. And that means 
that the United States is much more than who might be president today. 
It is a long-lasting relationship where the fundamentals need to be 
nurtured.
    So today, when we look at the issues that Nathalie has raised, one 
of the things that we have to get very much right are the big issues of 
safety, how we keep our people safe, counter terrorism, and then the 
big issue of how that has managed to impinge on the areas of commercial 
transfers of data. Because data is data, but it can be transferred for 
many reasons.
    And there are two big reasons--one is security. So, when we 
travel--and I want to mention this in the context of Brexit because 
it's to illustrate how important these areas are for this generation. 
And there are many young people here, so this is the future. And this 
is the difference between 1975 and today.
    The qualitative difference is that the future will be about massive 
data transfers both within domestic countries--there won't be the high 
streets that we have been used to; everything will be online--but 
between countries there will be massive commercial transfers. But if 
there are security exemptions and so on to these transfers, of course 
we have to sort out what they have to be. And then we have to 
understand security data transfers to ensure that we are keeping people 
safe. Of course, we have to ensure that our privacy is protected when 
that happens--hence, the Umbrella Agreement, hence all of the 
international agreements that we have between us.
    Now, you mentioned Brexit. Of course, when a country leaves two 
things happen, when a big country leaves, particularly. One is, we 
realize the importance of many of these things. Passenger name records 
was an agreement which the United Kingdom was very much leading and 
wanted. And of course, no doubt will keep involved in. But many other 
agreements, perhaps not. So, when you look at the headlines--there are 
headlines and then there are the realities of what it means to leave 
such a unique and extraordinary association as the European Union. 
There's nothing like it in the world. It is quite a unique association 
of countries. And I think the security aspect of that was very 
underestimated. And at some point, there will be an impact on the 
United States because of that.
    We'll see how the Brexit story goes. The Brexit story is not 
finished. As you're all keen students of politics, you will be 
watching. You probably know more about it than I do. I've been here in 
Washington without wi-fi. You probably have access to wi-fi. But I'd 
like to know a bit more about what happened in the last hour, for 
example. It's an hour-by-hour story--our Brexit story. So let's see 
what's happened so far. But there are only negatives for the U.K. of 
Brexit, because we are the ones who are leaving. Getting a deal not in 
the conventional sense. We are leaving, and the terms are with the 27. 
And I think this was the big, big, big problem about the idea, that 
there would be some kind of equal negotiation, which was never to be 
the case.
    And I think, as far as the United States is concerned, the United 
States wanted the U.K. to stay within the European Union. I think that 
was a cross-party sense and analysis, if we remember the history of 
Brexit. Whether you were a Democrat, whether you were a Republican, 
whether you were independent, you tended to think that it would be a 
good thing if the United Kingdom stayed within the EU. And I think 
people would tend to think that still. I don't think there are many 
people who think that's not a good idea. I think there is one person 
who thinks it's a good idea. But I think the broad swath of opinion is 
probably not the case. And I think there's plenty of evidence now to 
show that.
    There are people who like Brexit, by the way. You may have noticed 
I'm not one of them. So does that answer your question about Brexit? 
Good.
    Dr. Thompson. So--and I think we could easily take all of today's 
time to discuss Brexit. But we won't. [Laughs.] I have a number of 
questions I do want to raise with the panel. But just given the time, I 
do want to turn to our audience, and also just let people know that we 
are still expecting Senator Wicker. He had a conflict and is coming 
from another meeting. So with that, we have a microphone that is going 
around. If you're interested in asking a question, please raise your 
hand. Please introduce yourself.
    Questioner. Hi. My name is Elias Passis [ph]. I work in Senator 
Duckworth's office.
    I had a question regarding here in our Congress, there are a number 
of bills addressing beneficial ownership, illicit economies, and tax 
evasion. But with so many of the top earners in the world having stakes 
in economies across the transatlantic and elsewhere, I was wondering 
what kind of structures any of you have considered or see as being 
beneficial in making sure that illicit economies are something that we 
can address?
    MEP Boni. Thank you very much. First, I would like to address and 
add something about Brexit. Could we imagine the situation that in the 
perspective of 3 years the delegation of the European Parliament will 
go to London and will discuss with the U.K. Parliament the Privacy 
Shield, as we are now discussing with the U.S.? Because it will--of 
course, I hope that the U.K. will keep the solutions which were 
approved in the European Union, but it's not so clear? So, Brexit 
creates many, many new challenges. And I think it will not be so good 
for our common future.
    Coming back to some economic issues, I think that there is a big 
opportunity to create--when we are talking about data protection and 
personal data protection--to create the global reference point when we, 
European Union and U.S., also we are working with Japan and South Korea 
on some agreements on proper conditions for data flows. If we will 
create this reference point, I think it will be easier to discuss also 
with China and with Russia on those issues. So we need to make it 
together.
    Second, when we are talking about artificial intelligence, the U.S. 
is much more advanced. But in the European Union we have started the 
work on it. This is the first step in investment, 1.5 billion euro. But 
on the other hand, we are discussing the ethical aspects of the 
functioning of artificial intelligence. We are discussing the future 
labor markets. We are discussing what interactions between humans and 
artificial intelligence will look like in the future. It requires some 
changes in education that require some new skills and solutions in the 
area of attitudes and competencies.
    So, we need to be much more adaptable, if we will make it together, 
the European Union and the United States, I think that we will go 
forward. And when we are looking at China's program to be the first, to 
be the leader in 2025 in the area of artificial intelligence, I think, 
unfortunately without those considerations for ethical issues--I think 
it will be much stronger, it will be better for creating the strategy 
for artificial intelligence, which will be human-centered, because this 
is very important.
    When we are talking about cybersecurity, in the European Union we 
are now working on cybersecurity act. What does it mean? That we are 
working on certification schemes and the model of shared responsibility 
between states, the companies or institutions responsible for critical 
infrastructure, but also all companies, including small and medium 
companies, and individuals, because this is some kind of cybersecurity 
hygiene which is needed also for us as individuals. If we make them 
together, and if standards important for certification schemes become 
common in the European Union and in the United States, both sides will 
benefit. On the one hand we will be much more secure, on the other 
hand, we will create our economic advances in that area.
    So if I'm considering many, many issues, I think that there are 
common goals. And we need to go in this way, especially also when we 
will back commonly--the U.S. and European Union--to the track of the 
Paris Agreement, because this is an opportunity for us as humans to 
live in a better world. But on the other hand, this is an opportunity 
for businesses, yes? For a new model of development.
    So the list is very long. And I think that beyond the linguistic 
problem, as it was presented yesterday by President Trump--beyond many 
tensions existing now, I think that we need to have this list and we 
need to start cooperation because the future belongs to us.
    Thank you.
    MEP Moraes. May I say one thing about what Michal said that's very, 
very important that he raised just now? It is that to underestimate the 
relationship between the European Union and the United States is 
perilous. He gave such an excellent example of artificial intelligence 
and the movements in that field that would expand in China. China will 
do it. China will do all of these things. But they will do them in a 
different way. And they will do them in a way which will have a set of 
different values. European Union values on security, on commercial 
transfer are different. There will be liberal democratic values 
underpinning them. And this is critical. And that's why Brexit's bad 
too, because you want to stay within this area of values. This creates 
better business, it creates better security, better counterterrorism, 
because it's underpinned by values.
    Now, of course, there's a spectrum to that always. But China will 
do this. Other countries may go down different paths, but you really 
underestimate this to everyone's peril. And I think artificial 
intelligence and robotics are very good examples. And that's why the 
European Union is cooperating with South Korea and Japan. And it's why 
the United States does as well. So this relationship is so critical for 
that reason. And that's why we are more emotional about Brexit, because 
it should be within this incredibly important values arc, which should 
never be underestimated. And in the current context, it's why we feel 
the way we do about the relationship with the United States and the 
European Union.
    MEP Griesbeck. [Through interpreter.] Well, just to add to what my 
two colleagues just said, I'm totally in agreement with them. And let 
me tell you that they are both coming from a different political angle 
than myself. They are from two different parties, and I'm from a third 
party. But on these--on these big lines, we basically have very similar 
views and a very similar approach. And we are in Europe with half a 
billion--500 million people--over there. And the United States, you are 
something like 300 million. And there's on the one hand the European 
Union and the United States, and on the other hand there's China.
    And what distinguishes us from China is the set of values and 
principles that guide us. And despite the small differences between us 
and the United States, there's a dividing line between us and the 
United States on the one hand and China on the other hand. We have an 
ethical structure on which we are elaborating and on which we are 
developing. And, yes, to answer your question on tax evasion, for 
example, obviously we are doing similar--we are doing similar efforts. 
But we are doing them on values and the rule of law and on principles. 
And fine for China that they are developing, but they are developing on 
a very different basis. And from a--and starting--setting off from a 
different set of rules. So just to tell you that here we are, very much 
on the same page and very much in agreement, the three of us.
    [Speaks in English.] Excellent, Michael. He is from Germany. 
[Laughter.] Excellent.
    Mr. Speiser. One wouldn't believe that, huh? [Laughter.]
    Questioner. Hi. I'm Erika Schlager from the Helsinki Commission 
staff.
    First of all, I'd like to thank you for the excellent presentations 
that you've made this morning. The transatlantic relationship has 
really been built on a comprehensive concept of security, one that 
includes democracy and human rights. So I was particularly interested, 
and welcomed the comments that we heard this morning, about the 
challenges at present regarding the rule of law and independence of the 
judiciary. Now, you may know that members of Congress from both sides 
of the aisle, particularly in the Senate, have spoken to some of these 
issues, have written to the president and to the secretary of state 
about the importance of democracy and human rights in U.S. foreign 
policy. My question for you is, do you have suggestions on how Congress 
can constructively engage and reinforce democracy and human rights in 
the region at this juncture?
    Thank you.
    MEP Boni. Thank you very much for this question. And I want to 
thank to the representatives of Congress and the Senate, because the 
activity of those two chambers and the activity of many American 
institutions, the judges' associations and so on, is very high.
    And it's very important in Poland, when we have this kind of 
international support for keeping the independence of the judiciary 
system, for example, because it means that it is not only a topic for 
political internal battles, but that this is something more, yes? And I 
think it's very important for this part of society who is fighting for 
those values.
    And I think that because this is an ongoing story, so if you will 
be involved all the time and comment, and send some information, some 
suggestions, organize some pressure in a positive sense, I think that 
it will be very, very useful for all of us in Poland because one of the 
dimensions of the populistic model of the governing is to polarize 
society. So we have two societies in our country. This part of society 
who is involved in activities of the ruling party--this is some kind of 
religious community, my view is that it is not the civil society. This 
is the religious community, without any critical thinking about some 
solutions.
    But on the other hand, we have people who are fighting for 
democracy, who want to keep the independence of the judiciary system. 
They are attacked very often. We have no public media. Public media is 
TV propaganda, and so on and so on. So your voice is very, very, very 
important. And I want to just--to add just one point. When we start in 
the autumn in Poland and next year when we have many elections--local 
and regional elections this year, elections to the European Parliament 
next year, and the election to the Polish Parliament next year, and the 
presidential election in 2020.
    And we are organizing some kind--which is WWW, in Polish. But it 
means volunteers for free elections--for fair elections. Because we 
want to avoid the situation in which there will be some, delicately 
speaking, misunderstandings--[laughs]--with results of the elections. 
And I think if the civil society, Helsinki Commission, some 
representatives of Congress and Senate will be involved in keeping the 
fair elections, the [patron ?] of this action is--[inaudible]. So I 
think it's also visible to our American colleagues that this is one of 
the key person fighting for freedom in this part of Europe. So be with 
us and be in touch together.
    Dr. Thompson. As we're waiting for the microphone to get to our 
next question, I did want to raise a question about the demographic 
change that we're seeing in Europe. And, again, is this is one of the 
other issues that we should be focusing on? A number of people noted 
that the team in France, for example, that brought home the World Cup 
was quite diverse. And so there have been questions of whether or not 
there's a way to capitalize on increasing diversity in Europe. And I'm 
actually just really pleased, again, to have you here today, because 
you've been leading on the blue card initiative for Europe, that's 
looking at Europe's changing work force. And I was hoping you could 
talk a little bit about where things are with that and if there's 
anything specifically relevant to this high skilled effort that can 
also be utilized with the newer migrant and refugee populations that 
we're seeing in Europe.
    MEP Moraes. It's interesting that you're talking about the legal 
channels for coming to the European Union. So interestingly, nobody 
wants the blue card, which kind of tells you where that is. It tells 
you where the United States is at the moment and tells you where the 
European Union is.
    But what is happening in the world is that Western countries, the 
liberal democracies that we're talking about, are under relative 
migration pressure. Mr. Boni talked about climate change, we talk about 
refugee hot spots, Syria, Libya, what proceeded it, Iran, Iraq, 
Afghanistan, the refugee crises of that period. Although, in the 
Mediterranean the numbers are, in fact, falling. But the numbers that 
are coming are heavily politicized, as you well know when you watch the 
news.
    So there's migration pressure, but at the same time--and I don't 
know exactly the demographics in the United States--but at the same 
time in the European Union there's a very heavily aging, ethnically 
white population. So you have even in countries like Italy, Spain with 
relatively high density, you still have aging populations and the need 
for work in particular sectors. So you've got this conundrum. But 
migration is not a simple thing, particularly in European societies, 
post-colonial societies. Ethnicity, identity, race is a huge issue when 
you have powers that literally were colonial powers, and still are. 
Some European Union countries still have colonies. And so the 
psychology of this is extremely important.
    Each European Union country has had a different relationship with 
immigration. And immigration has been shaped in relation to those 
countries. So that's the underlying tension below all of this. Those 
countries without those colonial pasts, those who have had fewer 
colonies--Germany, for example--have a different immigration passage. 
Those countries that have few migrants and have been accession 
countries in 2004, like Poland and Hungary, have had a different 
migration passage. But France and the United Kingdom, colonial powers, 
their migration history is shaped by that. And then, of course, their 
constitutions have shaped it. So in France the republican notion, 
everyone is French. The United Kingdom, everyone is kind of British. 
[Laughs.] Sort of. So this is a complicated thing.
    Then this makes it difficult for the European Union to then have a 
migration policy, because you're dealing with the very, very difficult 
issues of sovereignty, identity, of citizenship, which are very, very 
defined. However, the European Union has an external border. The 
European Union needs to have the integrity of the external border and 
the freedom of movement within. And that's the big paradox. So this has 
been tested very heavily in recent years. And to have a settlement--
because we talk about human rights, liberal democracies--it has been 
tested heavily. And the first thing, to be positive, many good things 
have happened. Many countries have stepped up to the plate, have tried 
to do the right thing. Germany being a good example, Sweden, and other 
countries trying to do the right thing. Many other countries have been 
doing good things, but they're not being identified as doing so, 
because the whole issue has been caricaturized.
    So this is a very big subject, as you can see from how I'm 
describing it. But it should not be simplified. The big issues now that 
we have to deal with are that we have to have a managed migration 
policy for the European Union without us descending into populism and 
moving to a situation where the fear of migration dictates how 
governments are elected. And in my view--because I shouldn't have a 
view on the United States, you should have a view on the United 
States--but once leaders pursue the notion of fear of migration rather 
than management of migration, then you are descending into the 
situation we had in the 1920s, fear of invasion, fear of an enemy 
rather than understanding that you should manage migration for the good 
of everyone, for a win-win situation. And, second, understanding what 
migration means. There are certain push factors and certain pull 
factors. And the population should really be truthfully told what they 
are and why people are moving and what their migration needs are.
    We haven't reached this point yet. And certainly the European 
Union, there's been a shock to that. So today for example, the European 
Union doesn't have much of a legal migration policy because that's in 
retreat. But that doesn't mean we don't have the capacity to do it. The 
European Union has managed to do many things. And by the way, I would 
say about the European Union, people talk about the end of the European 
Union in many phases all the time. And it always is resilient. It 
always comes back and has a solution. And I'm very optimistic that even 
in this very difficult area, we will find solutions, we will manage 
things, because we're talking about sophisticated countries that can do 
this. And there are political, progressive forces that can try and 
ensure that we get a good solution, but it won't be easy. And I'm glad 
I'm getting older and it's all up to you. No, it's not, you're 
American. But the younger generation will have to grapple with this.
    Climate change, climate change refugees, I have to say that much of 
the movement--as we saw when we were in Lebanon recently--developing 
countries have the overwhelming majority of refugees, not Europe or the 
United States. That's the reality. But if you say to somebody in the 
European Union or the United States that's the case, it's meaningless 
if they switch on Fox News and everyone's telling them that they're 
being invaded by Mexicans and there needs to be a wall. So it's the 
same in the European Union. If Salvini in Italy is telling them that, 
look, we need to do this because he's under pressure. What's more 
difficult is if somebody in another country, where there's virtually no 
migration, tells them that they're being invaded--so Hungary, for 
example. And that's the big problem. This is a huge issue for us. But 
we can manage this.
    Why do we know we can manage it? Because history has been here--we 
have been here before. And we need to learn the lessons of history. And 
I think this is a profound issue. It's a management issue. It's an 
organizational issue. And by the way, when we talk about the 
transatlantic relationship, there's some symmetry here between the two.
    Can I just say this one final thing on migration? It's quite 
interesting, but a few years ago--both in the United States and the 
European Union--people said that migration was a non-issue. I remember 
that. It was about 22, 23 years ago. Secondary migration was the only 
thing. Everyone said immigration doesn't exist anymore as an issue in 
the United States. But all that existed in the United States as it was 
becoming more ethnically diverse. But immigration was not an issue. 
Refugees were not an issue for the United States.
    Funnily enough, it's a big issue today, and it's the same in the 
European Union. And there are many, many factors determining that, but 
we have to get through this. And the other thing is that it's a global 
issue, not an issue for the Western liberal democracies. We are caught 
in it because we don't want those people to come. And yet, we need some 
of them to do the work that no one else wants to do. And then as Mischa 
said, we need some of the skilled ones to do the more skilled work that 
we want them to do. So in my country, the National Health Service would 
collapse tomorrow without the migrant labor that we have, or the 
European Union free movement that we need. So this is the big paradox 
of migration. But it's probably the biggest single challenge that we 
have in the European Union, which almost like dwarfs the economy which 
seems to be ticking along nicely.
    And just a final point, the countries that complain most about 
migration have got the highest economic growth in the European Union 
today. That's just a really interesting point to mention.
    MEP Griesbeck. May I say a few words about the blue card and the 
conclusion from our President Claude Moraes?
    [Continues through interpreter.] Just to add to what Claude said, 
on the blue card, Claude Moraes, our president, used to be the 
rapporteur on this file. And he was in charge of this file. And I want 
to congratulate him for the great work that he has put into it, and the 
progress that had been made. A blue card would have been one way of 
opening routes for migrants--legal routes for migrants to come to 
Europe. And that would have been a good thing. Now it is because of the 
reluctance of some member states and their hypocrisy, in a way, that 
this dossier has not seen the light yet, or at least not seen the light 
in the way that it should be.
    Blue card would have been also an important issue because we are 
actually facing here two major problems in Europe. One is the problem 
of migration. And this problem of migration can basically cause us harm 
and bring down Europe if we are not able to provide for the good--for 
the good replies to it. And the blue card, in a way, would have been 
one way of a good response to that. And on the other hand, that was the 
question of Mischa from the start, the demographic development and the 
demographic change of Europe. If you look at Europe in a couple of 
years from now it will be a continent of gray hair, like myself. 
[Laughter.]
    And as paradox as it might sound, so on this one hand this 
migration issue, and at the same time we need something in terms of 
migration if we don't want to become the continent of gray hair. So 
that is a very big issue. And these are the two challenges that we are 
currently facing.
    Dr. Thompson. Okay. So we're going to do a really quick lighting 
round to see if we can end in 5 minutes. And--[laughs]--and so with 
that we'll take the two questions here.
    Questioner. Dan Stoller from Bloomberg.
    Just a quick question. With the growing political tension between 
the U.S. and the EU, and the EU's appetite for more data transfer pacts 
with Japan and South Korea, do you think there will be more data 
transfer agreements with other nations outside of the U.S. going 
forward? Is there a larger appetite for that?
    Questioner. I'm Robert Hand. I'm a colleague of Mischa's at the 
Helsinki Commission. And my portfolio is the Western Balkans, which is 
a region where the United States and the European Union has had to 
coordinate policies. In fact, at many of our previous hearings and 
briefings we have often had an EU official or even a member of the 
European Parliament come to talk about policy responses to the Balkans.
    If I were to present U.S. policy in its more simplistic form, and 
say it's to follow the European lead, to support Europe in its approach 
to the Western Balkans, how would you react? How confident are you in 
Europe's ability to lead in the Balkans, particularly given the 
problems with European leadership in the 1990s? And what 
recommendations would you make for U.S. engagement with Europe in that 
region that is knocking on the EU door right now?
    Thank you.
    Dr. Thompson. So, and I'll say the last question I want to add to 
the lightning round--and I apologize because I'm going to have to cut 
you off--is that there's been a lot of talk about security issues 
emanating from both Russia and China. Yet, there are a number of 
European countries, as well as our country, that are currently doing a 
lot of business with China in particular, and also looking to do more 
business with both in the future. And so I think the question emanating 
from that is whether or not there's a scenario where both China and 
Russia can actually become more credible partners on security with the 
United States.
    And so, with that, I will quickly turn to the panel for 1-minute 
answers on these three questions that were just posed.
    MEP Moraes. Just on the Bloomberg colleague's question about the 
adequacy agreements and the relationships--I mean, our committee will 
be going to South Korea in October, and we've just been to Japan. And 
our role is on the adequacy agreement in relation to the trade 
agreement. So the answer is absolutely yes, we're seeing adequacy with 
these countries. I met with the South Korean equivalent of the 
information commissioner body a couple of weeks ago. And the point is 
that they are extremely keen. When we meet them, they're extremely keen 
to seek this kind of equivalency, because they understand the need for 
kind of frictionless data transfers. So they're building relationships 
for the future, not just for the trade agreement. And they understand 
exactly what is happening in the European Union. I know this is fast, 
but understand we're modernizing our data protection laws, and again, 
you've got liberal economic space. But you've got rules which are now 
tried and tested. And I think that's been really good.
    Why are we doing it? We are doing the adequacy part. It's not just 
about privacy, it's also the commercial side. So absolutely yes, this 
is an exciting area. And I think yes, the U.S. should be aware of that, 
that we are doing that. And it's successful because we concluded the 
Japan trade agreement just recently. And we're quite excited to be part 
of that. I don't know, Mr. Boni might--and, of course, he had mentioned 
artificial intelligence, robotics, and so on. All of these areas--for 
example, Japan is hugely interested in that. So, the answer is yes.
    MEP Boni. I know we are sort of the beginning of conversation 
negotiations with Singapore on data flows. There are many companies 
installed in Singapore. So I think it will be very, very important from 
the economic point of view. And also, we are talking about Canada, 
because it should be also recognized. And after that, we need to make 
an order of the--[inaudible].
    This year in May, in the European summit in Sofia, we focused on 
establishing the strategy for the Balkans country's development. And I 
think it was very, very important. It was multidimensional, focused on 
many areas related to political issues, to fight against corruption, 
but also to support and to help those countries in the problems of 
depopulation, because it's a real challenge for those countries. We 
have discussed also about digital issues and making some special 
agreements and also using European money in the new infrastructure, 
making the accessibility to the internet much more open and for 
everybody.
    And Serbia is the one country for which the commission said, okay, 
2025 could be the year in which it this country will be a member of the 
European Union. And what is important is solving the problem of the 
name of Macedonia, is I think it's also opened the further steps. My 
personal view is that now for the European Union, from a political 
point of view, Balkan countries are much more important than the 
eastern partnership. But of course, the eastern partnership is 
crucial--Ukraine, Moldova, and Georgia having the association 
agreement, some distance to go for Armenia and Azerbaijan. Of course, 
there are many problems with Belarus. But I think that Balkan countries 
are the main focus.
    Dr. Thompson. And MEP Griesbeck, just on whether Russia and China 
can be credible counterterrorism and security partners for the U.S. and 
EU.
    MEP Griesbeck. [Through interpreter.] Right. To answer the question 
of the gentleman on the Balkans, I don't know what was really behind 
this question, if there's intention or if there is the thought behind 
whether the Balkans should join the European Union, yes or no. Let me 
answer the following--I know coming from a centrist, center political 
movement, being a member of the liberal group, I know that I'm a bit 
isolated here with my position. But here's the following look at 
Turkey. We opened accession discussions with Turkey and see where that 
has led us today. It was President Bush in 2004 who basically 
encouraged us to integrate Turkey into the European Union. And now 
relations with Turkey are rather deteriorating than improving. We have 
very, very, very difficult relations with Turkey. Look at the terrorist 
financing problems, look at the refugee problems. We have struck a deal 
with them that cost us 6 billion euros. And yet, this deal is subject 
to permanent blackmailing. So in case we wouldn't deliver, they would 
send more and more refugees.
    And this is to say I was always one of those who voted against 
Turkey's accession to the European Union. And in the same way, I'm also 
opposing the idea of integrating more Western Balkan countries into the 
EU. They should benefit from a very advanced and privileged 
partnership, but for the time being they should not be members of the 
EU. Why? Because the European Union is much more than just an economic 
platform. It's a political entity. It's an entity of shared values and 
ideas. And we are currently in a phase where we first need to deepen 
our integration with the member states that we have before we can 
basically go for further enlargement of the European Union. If we would 
go on and just enlarge the European Union, we would just run around 
like a duck without a head. And we first need to basically make our 
minds up where we want to go with this European Union that we are 
currently having before we ask more members to join us. And I know this 
is not a very popular position. And I know I'm not in the majority 
there with my views, but I wanted to share them with you.
    Dr. Thompson. Well, thank you all very much for such an amazing 
panel, following such a long trip from Europe, I'm certain with very 
little sleep. We know that officials on both sides were taking notes on 
everything that you said in preparation for the July 25th meeting that 
will take place between Presidents Trump and Juncker. And so, with 
that, we thank everyone else.
    Senator Wicker sends his apologies. He actually got tied up with 
Senate business. And so, we're hoping that there might be another 
opportunity for the delegation to connect with him, and with that, I 
thank all of you.
    Thank you. [Applause.]
    [Whereupon, at 11:18 a.m., the briefing was adjourned.]

                                          [all]


  

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
